2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-1039
PENNEAST PIPELINE COMPANY, LLC, PETITIONER
v.
STATE OF NEW JERSEY; NEW JERSEY DEPARTMENT
OF ENVIRONMENTAL PROTECTION; NEW JERSEY
STATE AGRICULTURE DEVELOPMENT COMMITTEE;
DELAWARE & RARITAN CANAL COMMISSION;
NEW JERSEY WATER SUPPLY AUTHORITY;
NEW JERSEY DEPARTMENT OF TRANSPORTATION;
NEW JERSEY DEPARTMENT OF THE TREASURY;
NEW JERSEY MOTOR VEHICLE COMMISSION.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR THE
CHAMBER OF COMMERCE OF THE UNITED STATES OF AMERICA AND THE
PENNSYLVANIA CHAMBER OF BUSINESS AND INDUSTRY AS AMICI CURIAE IN
SUPPORT OF PETITIONER in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and
10 point for the footnotes, and this brief contains `5025 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of March, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Notary Public

Affiant

